                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 112100076                                                                       Page 1 of 1



         Small businesses that receive SBIR phase I or II awards can submit a proposal for a
        .supplemental award as a phase IB or liB award. The phase IB or liB awards require that the
         small business secure a private investment that is a direct consequence of the Phase I or II award.
         This investigation was opened from a proactive review 1 to determine the legitimacy of private
         investments that a compan/ represented in a phase IB proposal. 3 In a separate allegation, the PI4
         (who is also the company president) on another award5 made to the company appeared to be a
         full time employee of the institution6 where the PI/president is a professor and the research was
         being conducted by the company in incubator research space. We verified the source of the
         funding for the Phase IB award and received confirmation from the PI's institution that he had
         been on sabbatical leave during the award period.

         This case is closed with no further action taken.




NSF OIG Porm 2 (11/02)
